             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR



                                                                                         September 10, 2014
Memorandum

To:           Douglas Glenn
              Director, Office of Financial Management

Attention:    Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up, Office of Financial
              Management

From:         Christopher Stubbs Cl.J.u._~ ~
                                              -
              Eastern Region Manager for Audits, Inspections, and Evaluations

Subject:      Verification of Recommendations for the Report, "National Park Service Visitor
              Donation Boxes" (Report No. ER-IS-NPS-0014-2011)
              Report No. ER-VS-MOA-0012-2014
       The Office oflnspector General (OIG) has completed a verification review of the
recommendations presented in the subject report. Our objective was to determine whether the
U.S. Department of the Interior (DOl) implemented our recommendations as reported to the
Office of Financial Management (PFM), Office of Policy, Management and Budget. PFM
reported to OIG that it has closed the recommendations. We concur that the recommendations
have been resolved and implemented.

Background

       Our March 2012 report, "National Park Service Visitor Donation Boxes," made three
recommendations to the National Park Service (NPS), pertaining to internal controls that are
necessary to ensure the continued integrity of cash collected from visitor donation boxes at
national park locations.

        In a May 17,2012 memorandum to OIG, NPS concurred with the report's
recommendations and outlined steps to implement them. On June 12, 2012, we referred the
recommendations to PFM for tracking and implementation; at that time, we considered all three
recommendations to be resolved but not implemented. On September 24, 2013, PFM reported
that the necessary steps had been taken to consider the recommendations implemented and
closed.
Scope and Methodology

      We limited the scope of this review to determining whether NPS implemented the
recommendations in our report. To accomplish our objective, we reviewed the supporting




                          Office of Audits, Inspections, and Evaluations I Herndon, VA
documentation that PFM obtained to recommend closure and the additional documentation that
NPS provided us relating to steps taken to close the recommendations.
        We did not perform site visits or conduct fieldwork to determine whether NPS had
corrected the underlying deficiencies that were initially identified. As a result, this review was
not conducted in accordance with the Generally Accepted Government Auditing Standards or the
Quality Standards for Inspection and Evaluation as put forth by the Council of the Inspectors
General on Integrity and Efficiency.
Results of Review

       We concluded that NPS implemented the recommendations as indicated by PFM’s
closure notification.

NPS Recommendations:

       Recommendation 1: Enforce existing policy requiring:
          a. written internal control policies at each park;
          b. parks administering visitor donation boxes to designate collection officers and to
             maintain supporting documentation; and
          c. employees handling cash to undergo a Minimum Background Investigation.

       Recommendation 2: Require NPS collection officers to remove cash from visitor
       donation boxes and to make deposits on a weekly basis, as required by policy, to reduce
       the incentive and opportunity for theft.

       Recommendation 3: Consider revising internal control review procedures to require a
       review of park visitor donation box collections, including those managed by authorized
       nonprofit entities.

Actions Taken:

       Actions Taken: NPS parks have demonstrated the enforcement of existing policies by
       providing internal control policies for donation box collection, collector designation
       forms, and proof of favorable background investigations for assigned employees, as well
       as the collection of cash deposits on a weekly basis.

       In addition, NPS’ Assistant Director for Partnerships and Civic Engagement updated the
       Reference Guide to Director’s Order #21 on Donations and Fundraising with information
       about management of donation boxes, including a section on undertaking a cost-benefit
       analysis before planning a new or upgraded fee collection facility or the installation of
       any new donation boxes, whether managed by NPS, a Park Friends Group, or a
       Cooperating Association.




                                                2
Conclusion

      We informed DOI officials of the results of this review on September 4, 2014.


cc:   Nancy Thomas, Audit Liaison Officer, Office of Financial Management
      Sharon Blake, Audit Liaison Officer, Office of Financial Management
      Vera Washington, Audit Liaison Officer, National Park Service




                                             3
